June 2006
Report No. 06-011


Challenges and FDIC Efforts Related to
Predatory Lending




           AUDIT REPORT
                                                                                                       Report No. 06-011
                                                                                                              June 2006



                                                    Challenges and FDIC Efforts Related to Predatory
                                                    Lending
                                                    Results of Audit

Background and Purpose of                           The FDIC faces significant challenges associated with identifying,
Audit                                               assessing, and addressing the risks posed to FDIC-supervised institutions
                                                    and consumers by predatory lending. Specifically, (1) each loan
Background
Predatory lending    and typically involves         transaction must be viewed in its totality to determine whether it may be
imposing unfair
Purpose       of Auditand abusive loan terms        predatory; (2) FDIC-supervised institutions can have direct or indirect
on borrowers, and statistics show that              involvement in predatory lending; and (3) nontraditional mortgages and
borrowers
The Federallose     more than $25 billion
                Deposit                             other loan products are now available that contain terms that may be
annually   due   to
Insurance Corporationpredatory practices.           viewed as appropriate for some borrowers, but predatory for others.
Predatory    lending
(FDIC) is responsible    can for
                              be detrimental to     Further, the FDIC must ensure that its efforts to combat predatory lending
consumers      and  increases
evaluating FDIC-supervised       the financial      do not limit consumer access to legitimate sources of credit.
and  reputation
financial          risk for financial
            institutions’
institutions.    Characteristics
compliance with federal               potentially   FDIC guidance issued to examiners, FDIC-supervised financial
associated    with   predatory
consumer protection laws           lending          institutions, and consumers addresses predatory lending. However, the
include,   but are not
and regulations.       Tolimited
                            evaluate to,            guidance does not formally articulate a supervisory approach to address
(1) abusive    collection
compliance, the FDIC          practices,            predatory lending and was not issued for the explicit purpose of
(2) balloon
conducts       payments with
            examinations       of unrealistic       identifying, assessing, and addressing the risks that such lending practices
repayment
institutionalterms,     (3) equity stripping
                practices                           pose to institutions and consumers. Further, certain characteristics
associated
regarding fair lending, refinancing and
              with   repeat                         potentially indicative of predatory lending were not covered. The lack of
excessive
privacy, and fees,  andconsumer
                 other     (4) excessive
                                                    an articulated supervisory approach and gaps in coverage could result in
interest  rates
protection laws. that   may   involve steering a
                                                    increased risk that predatory lending practices occur, are not detected, and
borrower to a higher-cost loan.
The objective of this audit                         harm institutions and consumers.
The  FDIC
was to        is responsible
         determine      the      for evaluating
FDIC-supervised
challenges faced and the institutions’
                        financial
compliance
efforts takenwithby thefederal
                           FDICconsumer
                                   to               Recommendations and Management Response
protection
identify, assess, and regulations,
              laws   and    address
including    several
the risks posed     to that
                         FDIC-address predatory     The report recommends that the FDIC describe in policy its overall
lending.    To  evaluate
supervised financial         compliance,    the     approach to addressing predatory lending and review existing examiner,
FDIC    conducts     examinations
institutions and consumers             of           financial institution, and consumer guidance and determine whether
institutional
from predatory  practices
                    lendingregarding fair           additional guidance is needed to address the risks associated with
lending,
practices.privacy,
              As a partandofother
                               that consumer        predatory lending. Additionally, the report identifies for the FDIC’s
protection    laws.
audit objective and to a                            consideration other federal banking regulatory agencies’ actions to
limited  degree,ofwe
The objective         thisalso
                             audit was to           identify, assess, and address predatory lending.
gathered    information
determine the challenges     fromfaced and the
other  federal   banking
efforts taken by the FDIC to identify,              FDIC management agreed with the recommendations. The FDIC will
regulators,
assess, and the    Federal
               address     the Trade
                               risks posed to       develop an overall supervisory approach to predatory lending that will
Commission       (FTC),
FDIC-supervised financial   and  theinstitutions
                                                    include a review of existing supervisory policies and practices. Based
United   States Department
and consumers       from predatory of lending
Housing    and   Urban
                                                    on that review, the Corporation will also develop additional guidance
practices. We also gained an                        to address predatory lending, if necessary.
Development
understanding(HUD).            The taken by
                   of the efforts
audit  focused    on   issues
the other federal banking       such
                                  regulators to
as policies   and  procedures,
address predatory lending.
including examinations of
and  information provided to
To view the full report, go to
FDIC-supervised         financial
www.fdicig.gov/2006reports.asp
institutions; handling
consumer complaints,
training, and consumer
educational efforts
                          TABLE OF CONTENTS


BACKGROUND                                          1

RESULTS OF AUDIT                                    2

CHALLENGES RELATED TO PREDATORY LENDING            3
    Transactions Must be Viewed in Totality        3
    Direct or Indirect Institutional Involvement   4
    Variety of Loan Products                       4
    Maintaining Consumer Access to Credit          4

FDIC EFFORTS TO ADDRESS PREDATORY LENDING           5
CHALLENGES
     FDIC Guidance Related to Predatory Lending     5
     Guidance to FDIC Examiners                     7
     Guidance to FDIC-Supervised Institutions      11
     Consumer Education                            12
     Conclusion and Recommendations                13

ISSUES FOR CONSIDERATION                           14
     Jointly Issued Guidance                       14
     Individual Regulatory Guidance                15
     Conclusion                                    17

CORPORATION COMMENTS AND OIG EVALUATION            17

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY      18

APPENDIX II: CONSUMER PROTECTION LAWS              24

APPENDIX III: CHARACTERISTICS POTENTIALLY          26
ASSOCIATED WITH PREDATORY LENDING

APPENDIX IV: INFORMATION PROVIDED BY OTHER         28
FEDERAL REGULATORY AGENCIES

APPENDIX V: CORPORATION COMMENTS                   31

APPENDIX VI: MANAGEMENT RESPONSE TO                37
RECOMMENDATIONS
TABLES
Table 1: OIG Analysis of Coverage for Characteristics Potentially    6
Associated With Predatory Lending

Table 2: Analysis of Reputational Risk for FRB-Supervised           17
Financial Institutions



ACRONYMS
AMTPA          Alternative Mortgage Transaction Parity Act
ANPR           Advance Notice of Proposed Rulemaking
ARM            Adjustable Rate Mortgage
CRA            Community Reinvestment Act
CRC            Consumer Response Center
DSC            Division of Supervision and Consumer Protection
ECOA           Equal Credit Opportunity Act
ED             Examination Documentation
FCRA           Fair Credit Reporting Act
FDCPA          Fair Debt Collection Practices Act
FFIEC          Federal Financial Institutions Examination Council
FHA            Fair Housing Act
FIL            Financial Institution Letter
FRB            Federal Reserve Board
FTC            Federal Trade Commission
GAO            Government Accountability Office
GLBA           Gramm-Leach-Bliley Act
HOEPA          Home Ownership and Equity Protection Act
HUD            Department of Housing and Urban Development
NCUA           National Credit Union Administration
OCC            Office of the Comptroller of the Currency
OIG            Office of Inspector General
OTS            Office of Thrift Supervision
RESPA          Real Estate Settlement Procedures Act
ROE            Report of Examination
TILA           Truth in Lending Act
Federal Deposit Insurance Corporation                                                                      Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                       Office of Inspector General



DATE:                                June 7, 2006

MEMORANDUM TO: Sandra L. Thompson, Acting Director
               Division of Supervision and Consumer Protection


FROM:                                Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                     Assistant Inspector General for Audits

SUBJECT:                             Challenges and FDIC Efforts Related to Predatory Lending
                                     (Report No. 06-011)

This report presents the results of the subject FDIC Office of Inspector General’s (OIG) audit.
Although there is no universally accepted definition, predatory lending typically involves
imposing unfair and abusive loan terms on borrowers, often through aggressive sales tactics;
taking advantage of borrowers' lack of understanding of complicated transactions; and outright
deception. The objective of this audit was to determine the challenges faced and efforts taken by
the FDIC to identify, assess, and address the risks posed to institutions and consumers from
predatory lending. Also, we gained an understanding of the efforts taken to address predatory
lending by the Office of Thrift Supervision (OTS), Office of the Comptroller of the Currency
(OCC), Federal Reserve Board (FRB), Federal Trade Commission (FTC), and Department of
Housing and Urban Development (HUD). Appendix I of this report discusses our objective,
scope, and methodology in detail.


BACKGROUND

According to the Center for Responsible Lending, which is a research and policy organization
whose main components include legislative and policy advocacy, borrowers lose more than
$25 billion annually due to predatory mortgages, payday loans, and lending abuses involving
overdraft loans, excessive credit card debt, and tax refund loans. Predatory lending can be
detrimental not only to consumers but also to financial institutions because such practices could
(1) lead to a high volume of foreclosures, which are costly to the mortgage holder; (2) undermine
the reputation of financial institutions and the public’s trust in the financial services industry; and
(3) subject institutions that engage in or unintentionally support predatory lending to the risk of
costly litigation.

Within the FDIC, the Division of Supervision and Consumer Protection (DSC) has primary
responsibility for dealing with issues related to predatory lending. DSC addresses predatory
lending and the effect that such lending might have on institutions and consumers as part of its
safety and soundness and compliance examinations. For example, DSC examiners evaluate an
institution’s compliance with various consumer protection, fair lending, and privacy laws,
including the following that address predatory, unfair, abusive, or deceptive acts or practices.
(See Appendix II for more details.)

   •   Equal Credit Opportunity Act (ECOA)
   •   Fair Credit Reporting Act (FCRA)
   •   Fair Debt Collection Practices Act (FDCPA)
   •   Fair Housing Act (FHA)
   •   Federal Trade Commission Act (FTC Act)
   •   Home Ownership and Equity Protection Act (HOEPA)
   •   Real Estate Settlement Procedures Act (RESPA)
   •   Truth in Lending Act (TILA)

DSC has issued guidance to examiners, financial institutions, and consumers regarding issues
related to predatory, unfair, abusive, or deceptive acts or practices. Further, the FDIC’s national
Consumer Response Center (CRC), established in July 2002, receives, investigates, and responds
to complaints involving FDIC-supervised institutions and answers inquiries from consumers
about consumer protection laws and banking practices. For the period January 1, 2003 through
November 7, 2005, CRC identified 23 possible predatory lending complaints and inquiries. In
response, CRC investigated or referred complaints to the responsible federal banking regulator as
deemed appropriate, or otherwise disposed of the complaints. More specifically:

   •   eight complaints were investigated by the FDIC, and no evidence was found that the
       financial institution violated a consumer protection law or regulation;

   •   seven complaints were referred to other agencies because those circumstances did not
       involve FDIC-supervised institutions;

   •   four inquiries were information requests from consumers about payday or predatory
       lending;

   •   two complaints were investigated by the FDIC, and the Corporation did not intervene due
       to litigation between the consumer and the financial institution; and

   •   two complaints were not investigated by the FDIC because the consumer did not provide
       enough information about the nature of the complaint.


RESULTS OF AUDIT

Overall, we found that the FDIC faces significant challenges associated with identifying,
assessing, and addressing the risks posed to FDIC-supervised institutions and consumers by
predatory lending. Specifically, (1) each loan transaction must be viewed in its totality to
determine whether it may be predatory; (2) FDIC-supervised institutions can have direct or
indirect involvement in predatory lending; and (3) nontraditional mortgages and other loan
products are now available that contain terms that may be viewed as appropriate for some



                                                 2
borrowers but predatory for others. Further, the FDIC must ensure that its efforts to combat
predatory lending do not limit consumer access to legitimate sources of credit.

FDIC guidance issued to examiners, FDIC-supervised financial institutions, and consumers
addresses predatory lending. However, the guidance does not formally articulate a supervisory
approach to address predatory lending and was not issued for the explicit purpose of identifying,
assessing, and addressing the risks that such lending practices pose to institutions and consumers.
Further, certain characteristics potentially indicative of predatory lending were not covered. The
lack of an articulated supervisory approach and gaps in coverage could result in increased risk
that predatory lending practices occur, are not detected, and harm institutions and consumers.
Therefore, the FDIC needs to clarify for examiners and institutions its overall approach to
addressing predatory lending and enhance guidance to bring increased attention to associated
characteristics.

Additionally, this report identifies for the FDIC’s consideration other federal banking regulatory
agencies’ actions to identify, assess, and address predatory lending.


CHALLENGES RELATED TO PREDATORY LENDING

The following discusses in detail significant challenges that the FDIC faces with respect to
combating predatory lending.

Transactions Must be Viewed in Totality

Identifying or recognizing predatory lending in a specific loan transaction can be a challenge
because each loan transaction must be viewed in its totality, including the associated marketing
practices, terms of the agreement, various parties involved in the loan transaction, and financial
sophistication of the parties involved. As a result, there is no simple “checklist” to follow in
identifying predatory lending.

Additionally, borrowers can be susceptible to predatory lending practices in several phases of the
loan transaction as described below.

  •   Marketing Phase. Lenders may employ aggressive marketing techniques that target
      specific borrowers or communities.

  •   Loan Underwriting Phase. Lenders may require borrowers to pay additional fees or accept
      additional and unnecessary services or products in order to receive a loan.

  •   Loan Execution Phase. Lenders may suggest refinancing, or “flipping” a loan (at an
      additional fee) without economic gain for the borrower.

When used in an unfair, abusive, or deceptive manner and depending on the circumstances faced
by the specific borrower and the borrower’s financial sophistication, the activities could, in fact,
be predatory.

                                                 3
Direct or Indirect Institutional Involvement

A financial institution’s involvement in predatory lending is not always obvious because such
involvement may be direct or indirect. Direct involvement might involve a financial institution
extending predatory loans to borrowers or using a network of loan brokers that have access to
subprime lenders. A financial institution’s indirect involvement in the predatory lending
process—knowingly or unknowingly—may result from acquiring or forming subsidiaries that
specialize in subprime lending, lending to subprime lenders, servicing loans, investing in asset-
backed securities, or participating in the securitization process. Accordingly, determining an
institution’s involvement in predatory lending is difficult for FDIC examiners.

Variety of Loan Products

The fixed-rate mortgage is now just one of an array of loan products. Such loan products
include: (1) no-money-down loans; (2) adjustable rate mortgages (ARM) with negative
amortization and interest-only options; and (3) Option-ARMs, which give borrowers increased
options in repaying the mortgage. Regulatory experience with nontraditional mortgage lending
programs has shown that prudent management of these programs requires increased attention to
product development, underwriting, compliance, and risk-management functions. Further,
although these loan products may be appropriate for certain consumers, the federal regulatory
agencies are concerned that these products and practices are being offered to some borrowers
who may not otherwise qualify for traditional fixed-rate or ARM loans and may not fully
understand the associated risks.

Maintaining Consumer Access to Credit

It has been widely recognized that there is a close relationship between predatory lending—
which is detrimental to the consumer—and subprime lending—which has a legitimate place in
the financial services industry, in that subprime lending serves the market of borrowers whose
credit histories would not permit them to qualify for a conventional “prime” loan. This challenge
is evidenced in testimony by the Comptroller of the Currency before the Committee on Banking
and Financial Services, U.S. House of Representatives, May 24, 2000:

       While we clearly need to address real abuses that exist, particularly in connection with
       home-secured loans, we also need to preserve and encourage consumer access to credit,
       meaningful consumer choice, and competition in the provision of financial services to
       low- and moderate-income families. Determining how to draw the line between
       predatory and legitimate credit practices in a way that will both combat abuses and
       advance these other objectives is a major challenge.

Further, as many as 12 million households either have no relationship with traditional financial
institutions or depend on “fringe lenders,” such as pawnshops, payday lenders, and rent-to-own
stores, for their credit needs. Such fringe lenders, which remain largely unregulated, frequently




                                                4
charge excessively high fees and can expose borrowers to predatory, unfair, abusive, or deceptive
acts or practices.1

Thus, in combating predatory lending, the FDIC’s challenge lies in preventing the unintended
consequence of limiting consumer access to legitimate credit sources.


FDIC EFFORTS TO ADDRESS PREDATORY LENDING CHALLENGES

The FDIC has taken action to address significant challenges related to predatory lending by
providing guidance in various forms to examiners, FDIC-supervised institutions, and consumers.
However, the guidance does not formally articulate the Corporation’s overall supervisory
approach for addressing predatory lending and is contained in multiple policies, procedures, and
memoranda. Generally, this guidance was not issued for the explicit purpose of addressing
predatory lending. In addition, the guidance covers many, but not all, of the characteristics often
associated with predatory lending. Consequently, predatory lending may not receive sufficient
attention, which increases the risk that such practices could occur, may not be detected, and may
harm institutions and borrowers.

FDIC Guidance Related to Predatory Lending

The FDIC has provided guidance related to predatory lending to examiners in safety and
soundness and compliance examination policies and procedures and Regional Directors
Memoranda and to institutions the FDIC supervises in financial institution letters (FIL).2 The
FDIC has also provided guidance to consumers on predatory lending through its adult education
program—Money Smart—and the FDIC Consumer News publication. However, we found that
the FDIC’s guidance did not articulate the overall supervisory approach for identifying,
assessing, and addressing predatory lending and either varied or did not explicitly cover some
predatory lending characteristics, depending on the source of the guidance.

Numerous lending characteristics, when considered either individually or in combination, could
indicate whether predatory lending has occurred. Our research identified 21 characteristics that
are potentially associated with predatory lending. Some of these characteristics are not
prohibited by law, but may be predatory if they are determined to be associated with unfair,
abusive, or deceptive lending practices. Table 1 shows the characteristics identified by our
research and indicates whether there is some coverage in established FDIC guidance.




1
  FDIC Banking Review, 2005, Volume 17, No. 1, Limited-Purpose Banks: Their Specialties, Performance, and
Prospects.
2
  FILs may announce new regulations, special alerts concerning entities operating illegally as financial institutions,
new FDIC publications, or a variety of other matters.

                                                           5
Table 1: OIG Analysis of Coverage for Characteristics Potentially Associated With
Predatory Lendinga
                                                                                             b
                                                                     Examination Guidance
                                                                    Safety and
                         Characteristic                             Soundness Compliance           FILs       Money
                                                                                                              Smart
                       The “9” indicates that guidance included some coverage of the characteristic.
  Abusive Collection Practices                                            9                9           9           9
  Balloon Payments With Unrealistic Repayment Terms                                        9           9           9
  Encouragement of Default in Connection With Refinancing
  Equity Stripping Associated With Repeat Refinancing and
  Excessive Fees                                                                                       9           9
  Excessive Fees not Justified by the Costs of Services Provided
  and the Credit and Interest Rate Risks Involved                         9                9           9           9
  Excessive Interest Rates That May Involve “Steering” a
  Borrower to a Higher-Cost Loan                                          9                9           9           9
  Fraud, Deception, and Abuse                                             9                9           9           9
  High Loan-to-Value Ratio That May Negatively Impact a
  Borrower’s Ability to Avoid Unaffordable Debt                           9                            9           9
  Lending Without Regard to Ability to Repay                              9                9           9           9
  Loan Flipping Without Economic Gain for the Borrower,
  Resulting in Equity Stripping                                           9                9           9           9
  Mandatory Arbitration Clauses                                                                        9
  Payday Lending                                                          9                9           9           9
  Pre-payment Penalties That May Trap Borrowers in High-Cost
  Loans                                                                                    9           9           9
  Refinancing of Special Mortgages Without Economic Gain for
  the Borrower, Resulting in Equity Stripping
  Refinancing Unsecured Debt Without Economic Gain for the
  Borrower, Resulting in Equity Stripping
  Repetitive Refinancing Without Economic Gain for the
  Borrower, Resulting in Equity Stripping                                                  9           9           9
  Single-Premium Credit Insurance That is Added to the Total
  Loan Amount and Increases the Total Interest Paid                                        9           9           9
  Spurious Open-End Loans                                                                  9           9
  Steering Borrowers Who Qualify for Lower-Cost Loans to
  Higher-Cost Financing                                                                                9
  Subprime Lending Within Which Predatory Lending Generally
         c
  Occurs                                                                  9                9           9           9
  Yield-Spread Premiums With Incentives to Steer Borrowers
  into Higher-Cost Loans                                                                   9           9
Source: OIG review of DSC guidance provided to examiners, FDIC-supervised financial institutions, and
consumers.
a
  Appendix III provides details on the characteristics that may be predatory if they are determined to be associated
  with unfair, abusive, or deceptive lending practices.
b
  Examination guidance includes examination policies, procedures, and Regional Directors Memoranda.
c
  According to the DSC Risk Management Manual of Examination Policies, there is not a universal definition of a
subprime loan in the industry, but subprime lending is generally characterized as a lending program or strategy that
targets borrowers who pose a significantly higher risk of default than traditional retail banking customers.




                                                          6
Coverage of the lending characteristics in Table 1 can vary depending on their nature, and certain
characteristics may appropriately lend themselves to being covered under one type of
examination (e.g., safety and soundness or compliance) in comparison to another. As a result,
we fully recognize that there may be legitimate reasons why certain characteristics may not be
included in a particular form of guidance. However, three of the characteristics were not
explicitly covered by any of the guidance—specifically, (1) encouragement of default,
(2) refinancing of special mortgages, and (3) refinancing unsecured debt.

There may be other lending characteristics associated with predatory lending practices that are
not included in Table 1. Further, we recognize that defining lending practices that constitute
predatory lending is not easy and that consideration must be given to the context in which
lending practices occur. Some lending practices may be abusive in the context of high-cost
loans; others may be unacceptable in all contexts; and others, not necessarily abusive for all
high-cost borrowers, may be abusive for a particular borrower due to deception. We discuss, in
detail, coverage of the characteristics by the various forms of FDIC guidance in the following
sections of the report.

Guidance to FDIC Examiners

The FDIC conducts and provides guidance on examinations to determine the safety and
soundness of financial institutions and whether institutions are complying with consumer
protection laws and regulations. DSC’s examination guidance does not articulate the FDIC’s
overall supervisory approach for addressing predatory lending. Further, the FDIC’s safety and
soundness examination and compliance examination guidance addresses many, but not all of the
potentially predatory lending characteristics that our research identified.

Safety and Soundness Examination Guidance

We found that DSC’s safety and soundness examination guidance covered the following
characteristics.

Subprime Lending Examination Documentation (ED) Module

   •   Abusive collection practices.

   •   Excessive fees not justified by the costs of services provided and the credit and interest
       rate risks involved.

   •   Excessive interest rates that may involve “steering” a borrower to a higher-cost loan.

   •   Fraud, deception, and abuse.

   •   Lending without regard to ability to repay.

   •   Loan flipping without economic gain for the borrower, resulting in equity stripping.



                                                7
      •   Subprime lending within which predatory lending generally occurs.

Residential Real Estate Lending ED Module

      •   High loan-to-value ratio that may negatively impact a borrower’s ability to avoid
          unaffordable debt.

Payday Lending Guidance

      •   Payday lending (a particular type of subprime lending) guidance also includes guidance
          on lending without regard to the ability to repay and information on various consumer
          protection laws, including the TILA, ECOA, FCRA, FDCPA, and FTC Act.3

As of September 30, 2005, the FDIC reported 91 ( about 2 percent) of the 5,257 FDIC-
supervised institutions as subprime lenders based on aggregate credit exposure in subprime loans
equal to or greater than 25 percent or more of Tier 1 capital. As a result, use of the Subprime
Lending ED Module and coverage of the seven characteristics noted above could be limited to a
small number of FDIC-supervised institutions.

In addition to the subprime, residential real estate, and payday lending guidance, we found that
the Mortgage Banking ED Module does not specifically reference any of the characteristics but
does contain the following step in the Internal Controls section of the segment entitled, Core
Analysis Procedures, as shown below:


    Evaluate the bank’s process for ensuring compliance with predatory lending laws, including:

               •   the strategy for handling loans originated and serviced in various jurisdictions;
               •   procedures to confirm compliance with predatory lending laws and regulations;
                   and
               •   risk controls that are in place to prevent predatory servicing practices.


The extent to which examiners would perform this step depends upon whether the financial
institution being examined is classified as a mortgage banker. As of September 2005, the FDIC
classified 376 (about 7 percent) of its supervised institutions as mortgage bankers, which are
defined as institutions that deal in mortgages with brokers originating loans and then selling them
to investors. Further, although the module directs examiners to evaluate the bank’s procedures
for confirming compliance with predatory lending laws and regulations, the module does not
specify the laws and regulations the examiners should use to make the evaluation. However,
DSC officials stated that the ED modules resulted from an interagency effort by the FDIC,

3
  The FDIC’s subprime lending and payday lending guidance also provides information on the FDIC’s expectations
for prudent risk-management practices for those lending activities. At the time the FDIC released its payday lending
guidance in March 2005, the Corporation reported that 12 FDIC-supervised institutions were engaging in payday
lending.


                                                         8
Federal Reserve Board, and Conference of State Bank Supervisors and that because those
procedures are used by state examiners and federal examiners, it is not practical for the module
to document every applicable state and federal law and regulation. In addition, DSC officials
stated that ED modules are an examination tool that focuses on risk management practices and
guides examiners to establish the appropriate examination scope. In addition, the modules:

   •   incorporate questions and points of consideration into examination procedures to
       specifically address a bank's risk management strategies for each of its major business
       activities and

   •   direct examiners to consider areas of potential risk and associated risk control practices to
       facilitate an effective supervisory program.

Further, DSC officials stated that the Subprime Lending and Mortgage Banking ED Modules are
supplemental modules or reference modules to be used in conjunction with core ED modules.
Examiners are not required to duplicate efforts already addressed in core procedures or
elsewhere, since ultimately, the conclusions will be brought forward to the Core Analysis
Decision Factors.

The safety and soundness examination guidance did not cover the following characteristics:

   •   balloon payments with unrealistic repayment terms;

   •   encouragement of default in connection with refinancing;

   •   equity stripping associated with repeat refinancing and excessive fees;

   •   mandatory arbitration clauses;

   •   pre-payment penalties that may trap borrowers in high-cost loans;

   •   refinancing of special mortgages without economic gain for the borrower, resulting in
       equity stripping;

   •   refinancing unsecured debt without economic gain for the borrower, resulting in equity
       stripping;

   •   repetitive refinancing without economic gain for the borrower, resulting in equity
       stripping;

   •   single-premium credit insurance that is added to the total loan amount and increases the
       total interest paid;

   •   spurious open-end loans;

   •   steering of borrowers who qualify for lower-cost loans to higher-cost financing; and

                                                 9
   •   yield-spread premiums with incentives to steer borrowers into higher-cost loans.

Lacking coverage of certain characteristics could be significant because predatory lending may
cause safety and soundness problems. For example:

   •   Balloon Payments With Unrealistic Repayment Terms. A financial institution may
       structure loans with initial low monthly payments but include a balloon payment that the
       borrower cannot afford in an attempt to trap the borrower into refinancing and paying
       additional fees at the end of the loan term. However, if the borrower is unable to
       restructure the loan and the collateral value declines, the institution is left without
       adequate sources of repayment for the loan. Higher loan losses could lead to safety and
       soundness concerns.

   •   Refinancing Unsecured Debt Without Economic Gain for the Borrower, Resulting
       in Equity Stripping. A financial institution that engages in refinancing unsecured debt,
       using a borrower’s home as collateral, may eventually incur higher loan losses.
       Borrowers may continue to incur additional unsecured debt and may default on the loan.
       If a borrower defaults, the institution is dependent upon the collateral for any recovery on
       the loan. The bank would absorb foreclosure costs and any decline in collateral value.
       An institution that makes a loan to a consumer based predominantly on the liquidation
       value of the borrower’s collateral, rather than on determination of the borrower’s
       repayment ability, may be engaging in a fundamentally unsafe and unsound banking
       practice. This practice increases not only the risk to the bank that the loan will default
       but also the bank’s potential loss exposure upon default.

Compliance Examination Guidance

Compliance examination procedures include guidance for examiner use in determining
compliance with a number of consumer protection laws and regulations, including HOEPA,
TILA, RESPA, and the FTC Act. Examiners use these procedures if the examiner decides,
through the risk-focused compliance examination process, to test the bank’s compliance with a
particular law or regulation. Noncompliance can result in civil liability and negative publicity as
well as the FDIC’s imposition of formal or informal actions to correct noncompliance. Further,
it is important to note that the FDIC can rely on the FTC Act as authority for issuing enforcement
actions against financial institutions for unfair, abusive, and deceptive acts or practices, which
could include any or all of the characteristics potentially associated with predatory lending that
our research identified.

The FDIC’s compliance examination procedures include reference to many of the characteristics
that we identified in conducting the audit but do not cover the following:

   •   encouragement of default in connection with refinancing;

   •   equity stripping associated with repeat refinancing and excessive fees;




                                                10
   •   high loan-to-value ratio that may negatively impact a borrower’s ability to avoid
       unaffordable debt;

   •   mandatory arbitration clauses;

   •   refinancing of special mortgages without economic gain for the borrower, resulting in
       equity stripping;

   •   refinancing unsecured debt without economic gain for the borrower, resulting in equity
       stripping; and

   •   steering of borrowers who qualify for lower-cost loans to higher-cost financing.

Further, of those characteristics, neither the compliance nor safety and soundness examination
guidance covered: (1) encouragement of default in connection with refinancing; (2) equity
stripping associated with repeat refinancing and excessive fees; (3) mandatory arbitration
clauses; (4) refinancing of special mortgages without economic gain for the borrower, resulting
in equity stripping; (5) refinancing unsecured debt without economic gain for the borrower,
resulting in equity stripping; and (6) steering of borrowers who qualify for lower-cost loans to
higher-cost financing. These characteristics could cause detrimental consequences such as
defaults and foreclosures to borrowers. Although we did not identify specific coverage of the
seven characteristics in compliance examination guidance, as noted earlier, those characteristics
could indicate noncompliance with the FTC Act if the loan was made in an unfair, abusive, or
deceptive manner.

On June 17, 2005, the FDIC issued examination guidance entitled, Procedures for Determining
Compliance With the Prohibition on Unfair and Deceptive Acts or Practices found in Section 5
of the Federal Trade Commission Act. The purpose of that guidance is to strengthen the FDIC’s
ability to apply Section 5 of the FTC Act, which prohibits such acts or practices. In addition,
although examination guidance states that most banking organizations do not engage in unfair or
deceptive acts or practices, advances in banking technology and changes in the lending
organizational structure have contributed to financial institutions’ participating in non-banking
activities and provided the ability to structure complex financial products and sophisticated
marketing methods. The pace and complexity of these advances have increased the potential risk
for consumer harm. However, the examination guidance does not specifically address predatory
lending practices.

Guidance to FDIC-Supervised Institutions

The FILs issued to FDIC-supervised institutions include information on all of the characteristics
that we identified except for the following:

   •   encouragement of default in connection with refinancing;

   •   refinancing of special mortgages without economic gain for the borrower, resulting in
       equity stripping; and

                                                11
   •   refinancing unsecured debt without economic gain for the borrower, resulting in equity
       stripping.

Encouragement of default may influence a borrower to breach an existing loan to subsequently
refinance all or part of a loan, which could result in higher loan balances and additional interest
and fees. In addition, encouraging a borrower to use equity in a residence as collateral to
refinance unsecured debt, such as credit card debt, could jeopardize the borrower’s equity in the
residence and could, ultimately, result in the borrower losing the residence. Refinancing special
mortgages could also negatively affect terms that may have been favorable to the borrower,
leaving the borrower with loan terms that do not provide a tangible economic benefit.

Enhancing the FILs to cover these characteristics would help to ensure that financial institutions
protect consumers by avoiding these practices, when appropriate.

Consumer Education

The FDIC has included information related to predatory lending in its adult education
program—Money Smart—and its FDIC Consumer News publication. Money Smart includes
information on many of the characteristics that we identified but does not include coverage of the
following:

   •   encouragement of default in connection with refinancing;

   •   mandatory arbitration clauses;

   •   refinancing of special mortgages without economic gain for the borrower, resulting in
       equity stripping;

   •   refinancing unsecured debt without economic gain for the borrower, resulting in equity
       stripping;

   •   spurious open-end loans;

   •   steering of borrowers who qualify for lower-cost loans to higher-cost financing; and

   •   yield-spread premiums with incentives to steer borrowers into higher-cost loans.

The FDIC created Money Smart as a training program to help adults outside the financial
mainstream enhance their financial management skills and create positive banking relationships.
Ten comprehensive modules comprise the Money Smart curriculum and cover basic financial
topics to help consumers understand banking basics. The modules include information on bank
services, credit, budgeting, savings, credit cards, loans, and homeownership. The program also
provides information in the following areas to assist consumers in avoiding predatory lending:

   •   loan payment decisions,
   •   loan rejection,

                                                12
   •   predatory lending and TILA,
   •   predatory loan offers,
   •   predatory lending tactics, and
   •   what to do if consumers believe they are victims of a predatory loan.

Information on predatory lending also addresses mortgage loans, credit cards, and installment
loans. The program is available through the Internet, classroom instruction, or CD-ROM and is
available in multiple languages, including Spanish, Korean, Chinese, Vietnamese, and Russian.

The FDIC Consumer News provides practical guidance on how to become a smarter, safer user
of financial services. The Summer 2002 edition of the FDIC Consumer News article entitled,
High-Cost “Predatory” Home Loans: How to Avoid the Traps, advised consumers that:

       . . . something is robbing homeowners of money and putting many of these same families
       at risk of losing their homes. . . . There is no clear-cut definition of a predatory loan, but
       many experts agree that it is the result of a company misleading, tricking and sometimes
       coercing someone of taking out a home loan (typically a home equity loan or mortgage
       refinancing) at excessive costs and without regard to the homeowner’s ability to repay.
       Victims who have trouble repaying a predatory loan often face harassing collection
       tactics or are encouraged to refinance the loan at even higher fees.

The publication also acknowledged some of the consumer protection laws, including TILA and
HOEPA.

FDIC guidance to consumers could be enhanced to provide coverage on the seven characteristics
not already addressed to make consumers better aware of the potential negative effects of
predatory lending.

Conclusion and Recommendations

FDIC officials have stated that federally insured depository institutions have a good record of
avoiding involvement in predatory lending practices. Those financial institutions, which are
banks, thrifts, or credit unions, are subject to federal and state oversight and supervision, unlike
most subprime lenders. Further, financial institutions’ regulatory agencies have stated that their
monitoring and examination activities have revealed little evidence of predatory lending
practices by federally regulated depository institutions. However, as consumers enjoy more
access to credit from a wider variety of sources, opportunities have expanded for predatory
lending. Education is one way to help people achieve financial literacy and avoid abusive loans,
but supervision and oversight should also play an important role in preventing predatory lending
practices.

The FDIC has recognized the importance of its role in this regard by establishing a strategic goal
to ensure that consumers’ rights are protected and by responding to consumer complaints and
inquiries related to predatory lending. The FDIC has also taken steps to provide guidance to its
examiners, FDIC-supervised financial institutions, and consumers on many of the characteristics
related to predatory lending. However, the Corporation could bring more attention to combating

                                                 13
predatory lending by establishing and articulating its overall supervisory approach for
identifying, assessing, and addressing the risks associated with predatory lending and ensuring
that characteristics of predatory lending are addressed in examiner, institution, and consumer
guidance.

We recommend that the Director, DSC:

    (1) Describe in policy the FDIC’s overall supervisory approach to predatory lending.

    (2) Review existing examiner, financial institution, and consumer guidance and determine
        whether additional guidance is needed to address the risks associated with predatory
        lending.


ISSUES FOR CONSIDERATION

The FDIC and some members of the Federal Financial Institutions Examination Council
(FFIEC)4 have addressed predatory lending in various ways. These include jointly issued
guidance, performance measurement, consumer information on predatory lending, and
assessment of risk associated with predatory lending. Appendix IV contains supplemental
information from some of the other federal banking regulatory agencies regarding their efforts
related to predatory lending.

Jointly Issued Guidance

The FFIEC members have jointly issued guidance to examiners, financial institutions, and
consumers on supervisory and consumer issues related to some predatory lending characteristics.
For example, the FFIEC issued guidance and examination procedures on subprime lending in
January 2001 and on fair lending in August 2004. Further, the FFIEC members issued guidance
to consumers entitled, Putting Your Home on the Loan Line is Risky Business.5 The brochure
provides information on the following:

    •   Groups targeted by abusive lenders or contractors—homeowners with low incomes or
        credit problems and the elderly.

    •   Steps consumers can take to protect themselves, including:

             o   considering multiple options for sources of credit;
             o   contacting several lenders for possible credit;

4
  The FFIEC, which consists of all federal financial institution regulatory agencies, is a formal interagency body
empowered to prescribe uniform principles, standards, and report forms for the federal examination of financial
institutions by the FDIC, OTS, OCC, FRB, and National Credit Union Administration (NCUA). The FFIEC makes
recommendations to promote uniformity in the supervision of financial institutions. The scope of our audit did not
include the NCUA.
5
  The following agencies also participated in the issuance of the consumer brochure: HUD, Department of Justice,
Federal Housing Finance Board, FTC, and Office of Federal Housing Enterprise Oversight.


                                                        14
             o comparison shopping for loan terms, conditions, payment options, points, fees,
               and penalties; and
             o understanding consumer rights and cancellation options.

    •    Contact information for federal banking regulatory agencies, the Department of Justice,
         HUD, Federal Housing Finance Board, and Office of Federal Housing Enterprise
         Oversight.

In addition, in March 2004, the FDIC and FRB jointly published guidance for state-chartered
institutions on unfair or deceptive acts or practices prohibited by Section 5 of the FTC Act. This
guidance explains how institutions could avoid engaging in practices that might be viewed as
unfair or deceptive.

Individual Regulatory Guidance

The individual members of the FFIEC have issued guidance to their examiners and supervised
institutions.

Office of Thrift Supervision Guidance

OTS has issued examination-scoping guidance and a Strategic Plan that specifically addresses
predatory lending. The OTS Examination Scope Worksheet, which examiners use to determine
whether a specific issue should be included in the examination scope, includes a line item for an
assessment of predatory lending issues. Further, the OTS Strategic Plan includes a performance
goal to maintain a thrift industry that effectively complies with consumer protection laws. As
stated in the plan, one of the strategies OTS uses for achieving performance is to “conduct
examinations with a top-down, risk focused approach that promotes comprehensive compliance
management including the establishment of adequate internal controls to ensure regulatory
compliance and to avoid predatory practices.”

Office of the Comptroller of the Currency Guidance

OCC has issued industry guidance addressing predatory lending.

    •    In February 2003, OCC issued two advisory letters related to predatory lending to the
         national banks and operating subsidiaries it supervises. The advisory letters:

             o    describe loan attributes that are often considered predatory and establish standards
                  for policies and procedures for monitoring loan transactions to avoid making,
                  brokering, or purchasing loans with such attributes;

             o    state OCC’s position that predatory lending will affect a national bank’s
                  Community Reinvestment Act (CRA) rating;6 and

6
 On July 19, 2005, the federal banking agencies approved CRA final rules, effective September 1, 2005. Those
rules include clarification on when discrimination or other illegal credit practices by a bank or its affiliate will
adversely affect an evaluation of the bank's CRA performance.

                                                          15
           o   clarify ways in which predatory lending practices can create legal, safety and
               soundness, and reputational risks for national banks.

   •   In January 2004, OCC issued a rule adopting anti-predatory lending standards that
       expressly prohibit national banks from (1) making consumer and mortgage loans based
       predominantly on the bank’s realization of the foreclosure value of the borrower’s
       collateral, without regard for the borrower’s ability to repay, and (2) engaging in unfair
       and deceptive practices within the meaning of Section 5 of the FTC Act.

   •   In September 2004, OCC issued an advisory letter alerting national banks regarding
       OCC’s concerns about certain credit card marketing and account management practices.
       These practices may entail unfair or deceptive acts or practices and may expose a bank to
       compliance and reputational risks.

   •   In February 2005, OCC issued guidelines on national bank residential mortgage lending
       standards to further the OCC’s goal of ensuring that national banks do not become
       involved in predatory, abusive, unfair, or deceptive residential mortgage lending
       practices. The guidelines are enforceable pursuant to the process provided in Section 39
       of the FDI Act and Part 30 of OCC regulations. The new guidelines incorporated key
       elements of the OCC’s February 2003 advisory letters.

Federal Reserve Board Guidance

The FRB has issued examination guidance on assessing financial institutions’ risks related to
predatory lending. FRB’s Risk-Focused Consumer Compliance Supervision Program, dated
December 2003, states that FRB examiners evaluate consumer compliance risks during
specialized consumer compliance examinations. The consumer compliance risk profile
incorporates an assessment of operational, legal, and reputational risks arising from a bank’s
consumer compliance activities.

In evaluating reputational risk during safety and soundness examinations, examiners are to
determine whether the bank’s risk is “low,” “moderate,” or “high” in accordance with FRB
guidance. In addition, examiners assign a trend indicator of “increasing,” “stable,” or
“decreasing.” The risk assessment considers the (1) level of inherent risk involved in each of the
bank’s significant business activities and (2) strength of risk management systems in place to
control the level of risk in these activities. Table 2 on the next page shows that FRB examiners
consider the level of reputational risk specifically related to predatory lending for FRB-
supervised financial institutions.




                                                16
Table 2: Analysis of Reputational Risk for FRB-Supervised Financial Institutions
                                          Reputational Risk
               Low                             Moderate                             High
 Business strategy and/or bank     Business strategy and/or bank      Business strategy and/or bank
 products unlikely to raise        products may raise concern         products likely to raise serious
 concern regarding predatory       regarding predatory lending        concern regarding predatory
 lending and/or unfair and         and/or unfair and deceptive acts   lending and/or unfair and
 deceptive acts or practices.      or practices.                      deceptive acts or practices.
Source: FRB Risk-Focused Consumer Compliance Supervision Program, dated December 2003.

Conclusion

It is not our intention to conclude on whether one agency’s approach to addressing predatory
lending is better than another. We recognize that the OCC and OTS supervisory approaches to
predatory lending are based, in large part, on their authority to charter and supervise institutions
whose operations are largely defined and bound by federal statutes and regulations. Unlike the
OCC and OTS, the FDIC is not a chartering authority and shares regulatory oversight of the
institutions it supervises with the appropriate state supervisor that can address predatory lending
through applicable state and local laws and regulations. Nevertheless, the FDIC should consider
the merits of the other federal banking regulatory agencies in establishing the Corporation’s
supervisory approach to this important issue. Additional information on OTS and OCC
predatory lending efforts is in Appendix IV.


CORPORATION COMMENTS AND OIG EVALUATION

A draft of this report was issued on February 24, 2006. On June 1, 2006, the Acting Director,
DSC, provided a written response to the draft report. The DSC response is presented in its
entirety in Appendix V. A summary of management’s response to the recommendations is in
Appendix VI.

In its response to recommendations 1 and 2, DSC stated that it agreed with the recommendations
and would develop an overall supervisory approach to predatory lending that will include a
review of existing supervisory policies and practices. Based on that review, DSC will also
develop additional enhanced guidance to address predatory lending, if necessary. DSC agreed to
complete these actions by December 31, 2006. These agreed-upon actions meet the intent of our
recommendations, which will remain open for reporting purposes until we have determined that
the actions have been completed and are effective.

In addition to addressing the recommendations in the draft report, DSC’s response provided an
overview of its past and ongoing efforts to address predatory lending, including (1) examination
guidance and training, (2) enforcement policy, (3) speeches and testimony, and (4) financial
education.




                                                  17
                                                                                      APPENDIX I




                       OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The overall objective of this audit was to determine the challenges faced and efforts taken by the
FDIC to identify, assess, and address the risks posed to institutions and consumers from
predatory lending. As part of this objective, we contacted other federal regulators to determine
the policies, procedures, and guidance the banking regulators, FTC, and HUD had issued to
address these risks. We performed our audit from April 2005 through January 2006 in
accordance with generally accepted government auditing standards.

Scope and Methodology

To achieve the objective, we interviewed FDIC officials in:

   •    DSC’s headquarters in Washington, D.C., responsible for conducting safety and
        soundness and compliance examinations of FDIC-supervised financial institutions.

   •    DSC’s Kansas City Regional Office, CRC, responsible for investigating consumer
        complaints about FDIC-supervised institutions and for responding to consumer inquiries
        about consumer laws and regulations and banking practices. We obtained information
        on policies and procedures related to consumer complaints and inquiries and statistics on
        the number of complaints and inquiries received since 2003 that related to predatory
        lending.

   •    The Office of Ombudsman, which acts as a liaison for the banking industry and the
        general public, to facilitate the resolution of problems and complaints in a fair, impartial,
        and timely manner.

In addition, we reviewed:

   •    Prior audit reports and various articles related to predatory and subprime lending.

   •    FDIC regulations and DSC policies and procedures manuals, including related
        examination procedures for safety and soundness and compliance examinations; and
        FILs used to provide guidance and announce new regulations and special alerts to
        FDIC-supervised institutions.

   •    Literature and the training modules for, and performance measures related to, the
        FDIC’s Money Smart program.

   •    The FDIC’s 2005-2010 Strategic Plan, 2005 Annual Performance Plan, and the
        FDIC/DSC 2004 Business Line Objectives to determine whether the Corporation had
        developed performance measures related to consumer protection, in general, and
        predatory lending, in particular.

                                                18
                                                                                              APPENDIX I




    •    Information obtained during interviews with other federal banking regulatory agencies,
         FTC, and HUD and those agencies’ respective Web sites on:

                 •   examination policies and procedures and
                 •   information provided to examiners, financial institutions, and consumers.

During the audit, we coordinated with the other FDIC OIG Office of Audits directorates, Office
of Investigations, and Office of Counsel and GAO to determine whether there were prior or
ongoing audits, studies, or investigations related to predatory lending. Regarding congressional
issues or interests related to predatory lending, we coordinated with the FDIC OIG Office of
Management and Congressional Relations. We did not consider any pending legislation that
might relate to predatory lending.

We gathered data on the federal banking regulatory agencies’ policies and procedures related to
predatory lending, including examination guidance and information provided to FDIC-insured
financial institutions; policies and procedures for handling consumer complaints; policies and
procedures related to cited violations and enforcement and/or supervisory actions; and training.
We coordinated this aspect of our review through the respective federal agency Inspector
General organizations.7

In addition, we reviewed congressional testimony related to predatory lending and reports issued
by GAO, HUD and Treasury, OCC, Freddie Mac, the Center for Responsible Lending, and the
FDIC on payday and subprime lending and identified a set of 21 characteristics sometimes
associated with predatory, unfair, abusive, and deceptive acts or practices. Because there is no
specific definition for predatory lending, we used those characteristics in reviewing DSC
policies, examination procedures (safety and soundness and compliance), FILs, and Regional
Directors Memoranda to develop a matrix on the extent of coverage the FDIC’s guidance
provides on those characteristics. Appendix III provides a list of the characteristics and their
definitions.

Compliance With Laws and Regulations

We reviewed the DSC Compliance Examination Manual and compliance examination
procedures to identify guidance for examiners on consumer protection laws that relate to
predatory and subprime lending. We identified the following laws related to predatory and
subprime lending.

    •   Equal Credit Opportunity Act,
    •   Fair Credit Reporting Act,
    •   Fair Debt Collection Practices Act,
    •   Fair Housing Act,
    •   Federal Trade Commission Act,

7
  We coordinated meetings with FRB and FTC program officials through their respective Offices of Inspector
General. Our contact with HUD, OCC, and OTS was limited to meetings with their OIG officials and review of
information obtained from their agency Web sites.

                                                     19
                                                                                     APPENDIX I



   •   Home Ownership and Equity Protection Act,
   •   Real Estate Settlement Procedures Act, and
   •   Truth in Lending Act.

Appendix II provides details on the requirements of each law. During this audit, we did not
contact any state regulatory agencies to determine their efforts to identify, assess, and address
predatory lending or financial institutions’ compliance with state laws regarding predatory
lending. We also did not determine whether the FDIC reviews its supervised financial
institutions for compliance with state predatory lending laws.

DSC officials provided a sample of reports of examination (ROEs) that included instances in
which DSC cited financial institutions for noncompliance with some consumer protection laws.
We reviewed those ROEs solely to familiarize ourselves with how DSC addresses
noncompliance with consumer protection laws. We did not review the ROEs or any applicable
examination work papers to determine the extent of coverage of predatory lending characteristics
during safety and soundness or compliance examinations.

In April 1975, the FDIC complied with the FTC Act in establishing a separate office to receive
and respond to complaints about financial institutions that it supervises. In addition, effective
July 1, 2002, the FDIC centralized its consumer affairs function with the establishment of the
CRC within DSC. The CRC receives, investigates, and responds to complaints involving FDIC-
supervised institutions and answers inquiries from consumers about consumer protection laws
and banking practices. We did not identify any instances of FDIC noncompliance with pertinent
laws and regulations.

Reliance on Computer-based Data, Government Performance and Results Act, Fraud and
Illegal Acts, and Internal Control

Validity and Reliability of Data from Computer-based Systems

We did not use any computer-based data for evaluative purposes. Although we obtained
information from DSC’s automated Specialized Tracking and Reporting System (STARS) on the
number and type of consumer complaints and inquiries regarding predatory lending, we did not
rely on this information to achieve our audit objective. Accordingly, we did not conduct any
independent testing of computer data.

Performance Measures

The Government Performance and Results Act of 1993 directs Executive Branch agencies to
develop a strategic plan, align agency programs and activities with concrete missions and goals,
manage and measure results to justify appropriations and authorizations, and design budgets that




                                                 20
                                                                                       APPENDIX I



reflect strategic missions. In fulfilling its primary supervisory responsibilities, the FDIC pursues
two strategic goals:

  •   FDIC-supervised institutions are safe and sound, and

  •   consumers’ rights are protected, and FDIC-supervised institutions invest in their
      communities.

The FDIC’s Strategic Plan is implemented through the Corporation’s Annual Performance Plan.
The annual plan identifies performance goals, indicators, and targets for each strategic objective.
In reviewing the FDIC’s Strategic Plan and Annual Performance Plan, we did not identify any
strategies or performance goals directly related to predatory lending.

Fraud and Illegal Acts

The objective of this audit did not lend itself to testing for fraud and illegal acts. Accordingly,
the survey and audit programs did not include specific audit steps to test for fraud and illegal
acts. However, we were alert to situations or transactions that could have been indicative of
fraud or illegal acts, and no such acts came to our attention.

Internal Controls Reviewed

During the audit, we gained an understanding of relevant control activities related to
examinations by reviewing DSC policies and procedures as presented in DSC’s Compliance
Examination Manual, Risk Management Manual of Examination Policies, safety and soundness
examination documentation modules, and Regional Director Memoranda.

Summary of Prior Audit Coverage

GAO Audit

In January 2004, GAO issued Audit Report GAO-04-280 entitled, Federal and State Agencies
Face Challenges in Combating Predatory Lending. Chairman and Ranking Minority Member,
Special Committee on Aging, U.S. Senate, requested that GAO evaluate issues related to
predatory home mortgage lending. GAO’s report discusses (1) federal laws related to predatory
lending and federal agencies’ efforts to enforce them; (2) actions taken by states to address
predatory lending; (3) the secondary market’s role in facilitating or inhibiting predatory lending;
(4) ways in which consumer education, mortgage counseling, and loan disclosures may deter
predatory lending; and (5) the relationship between predatory lending activities and elderly
consumers.




                                                 21
                                                                                              APPENDIX I



FDIC OIG Audits

The FDIC OIG conducted three previous audits related to fair lending, subprime lending, and
consumer protection but has not conducted any previous audits specifically related to predatory
lending.

On March 26, 2002, the OIG issued Audit Report 02-009, The Division of Compliance and
Consumer Affairs’ Risk-Scoping Process for Fair Lending Examinations, on the fair lending
examination risk-scoping process as conducted by the Division of Compliance and Consumer
Affairs.8 The audit focused on the FDIC’s application of the FFIEC Interagency Fair Lending
Examination Procedures and did not directly relate to the scope of our audit.

On March 18, 2003, the FDIC OIG issued Audit Report 03-019, The Division of Supervision and
Consumer Protection’s Examination Assessment of Subprime Lending, in which the OIG
concluded that:

       DSC had taken reasonable steps to ensure that institutions (1) effectively manage risks
        associated with subprime lending programs and price loans based on risk, (2) establish
        adequate allowance levels to cover loan and lease losses, and (3) maintain capital levels
        that reflect the additional inherent risks associated with subprime lending.

       Interagency policies and procedures for examinations of subprime banks provided
        examiners with the necessary guidance to identify and assess the condition of subprime
        loan programs in insured institutions, and the examiners adequately implemented this
        guidance. The procedures specifically addressed the management of risk associated with
        subprime lending programs, stressed the need for banks’ risk management programs to
        address loan pricing, and set forth the requirements for calculating and maintaining
        adequate allowances for loan and lease losses and capital levels.

       FDIC examiners conducted pre-examination planning that included steps to look for
        indications of subprime lending programs and generally followed the interagency
        subprime lending examination procedures involving examinations of capital levels during
        onsite examinations. In addition, DSC maintained a quarterly database to assist in
        monitoring the condition of FDIC-insured institutions with subprime lending programs.
        Further, examiners noted that institutions had implemented corrective actions as a result
        of DSC examination findings related to the banks’ subprime lending activities, including
        requirements for maintaining adequate levels of capital and adequate allowances to cover
        loan and lease losses.

The OIG reported that existing guidance may not have been sufficient for ensuring that models
used by banks to estimate the creditworthiness of credit applicants made correct predictions. As
a result, there was a potential for a lack of consistency in onsite examinations of banks with
subprime lending programs, particularly with regard to allowances for losses and capital-level

8
 Effective June 30, 2002, the FDIC’s Division of Supervision and Division of Compliance and Consumer Affairs
merged to form the new DSC.


                                                      22
                                                                                    APPENDIX I



calculations. Also, in order for lenders to appropriately stratify the additional default risk and
price the subprime products accordingly, constant monitoring and testing of credit scoring
models were required to ensure that projected results were in line with actual performance. The
FDIC agreed with the OIG’s observations and planned to offer additional training for a select
group of specialists on custom credit scoring.

On September 23, 2005, the FDIC OIG issued Audit Report 05-038 entitled, Division of
Supervision and Consumer Protection’s Risk-Focused Compliance Examination Process. The
OIG concluded that DSC examiners generally complied with the policies and procedures related
to risk-scoping compliance examinations and that the Risk Profile and Scoping Memorandums
prepared by examiners provided an adequate basis for planned examination coverage. The
examiners (1) reviewed bank policies, procedures, disclosures, and forms for compliance with
consumer protection laws and regulations for each examination reviewed and (2) planned for
transaction testing or spot checks in all compliance areas over the course of two consecutive
examinations – a period of 2 to 6 years, depending on an institution’s size and ratings.
Additionally, examiners conducted transaction testing or spot checks in those areas for which
apparent violations had been found at previous compliance examinations. However, the OIG
found that examination documentation did not always show the transaction testing or spot checks
conducted during the onsite portion of the examinations, including testing to ensure the
reliability of the institutions’ compliance review functions. Examiners also did not always
document whether the examination reviewed all the compliance areas in the planned scope of
review. As a result, DSC could not assure that the extent of testing was appropriate except for
those areas in which examiners had identified violations and included them in ROEs. We
recommended that DSC clarify and reinforce requirements that examiners adequately document
the scope of the work performed, including transaction testing and spot checks of the reliability
of the institutions’ compliance review functions, during the onsite portion of compliance
examinations.

DSC concurred with the recommendation and issued Regional Directors Memorandum
No. 2005-035, DSC’s June 2003 Revised Compliance Examination, which included guidance on:

   •   documenting changes in the scope of an examination,
   •   documenting spot checks of regulations,
   •   providing cross-checks to additional information available in Examiner Summaries, and
   •   providing descriptions of examination procedures used to conduct the examination.

We also reviewed the joint HUD and Treasury predatory lending report, Curbing Predatory
Home Mortgage Lending, dated June 2000. The report proposed a four-point plan to address
predatory lending practices—(1) improving consumer literacy and disclosures, (2) prohibiting
harmful sales practices in the mortgage market, (3) restricting abusive terms and conditions on
high-cost loans, and (4) improving market structure as it relates to CRA credit to banks and
thrifts.




                                                23
                                                                                                APPENDIX II

                                 CONSUMER PROTECTION LAWS

Equal Credit Opportunity Act (ECOA) – ECOA prohibits discrimination based on race, color,
religion, national origin, sex, marital status, and age in any aspect of a credit transaction. The
FRB issued Regulation B, which describes lending acts and practices that are specifically
prohibited, permitted, or required under ECOA.

Fair Credit Reporting Act (FCRA) – FCRA requires that consumer reporting agencies adopt
reasonable procedures for meeting the needs of commerce for consumer credit, personnel,
insurance, and other information in a manner that is fair and equitable to the consumer with
regard to confidentiality, accuracy, relevancy, and proper utilization of information. On July 19,
2000, the FFIEC issued revised examination procedures to incorporate changes made to the
FCRA as a result of the Gramm-Leach-Bliley Act (GLBA).9

Fair Debt Collection Practices Act (FDCPA) – FDCPA protects reputable debt collectors from
unfair competition and encourages consistent state action to protect consumers from abuses in
debt collection. On September 5, 1997, the FFIEC issued revised guidance to incorporate
changes made to the FDCPA by the Economic Growth and Regulatory Paperwork Reduction Act
(EGRPRA). EGRPRA amended the FDCPA by requiring debt collectors to inform debtors that
they are attempting to collect a debt and that any information obtained could be used for that
purpose.

Fair Housing Act (FHA) – The FHA prohibits discrimination based on race, color, religion,
national origin, sex, familial status, and handicap in residential real-estate-related transactions,
including making loans to buy, build, repair, or improve a dwelling. Lenders may not
discriminate in mortgage lending based on any of the prohibited factors.

Federal Trade Commission Act (FTC Act) – The FTC Act authorizes the FTC to prohibit and
take action against unfair or deceptive acts or practices in or affecting commerce. On March 11,
2004, the FDIC and FRB issued standards that will be considered by the agencies as they carry
out their responsibility to enforce the prohibitions against unfair or deceptive trade practices
described in the FTC Act as they apply to acts and practices of state-chartered banks.

Home Ownership and Equity Protection Act (HOEPA) – Congress enacted HOEPA in
response to evidence of abusive mortgage lending, particularly lending that involves excessive
interest rates and fees. HOEPA identifies a class of high-cost mortgage loans and requires that
consumers who enter into these transactions be provided with additional disclosures intended to
facilitate comparison with other loan products. HOEPA restricts the use of certain loan terms
associated with abusive lending and authorizes FRB to issue regulations that prohibit specific
types of mortgage lending practices found to be abusive. On December 20, 2001, FRB amended

9
 In addition to reforming the financial services industry, GLBA addressed concerns relating to consumer financial
privacy. Title V of the GLBA established major privacy provisions under Subtitles A and B. Subtitle A provides a
mechanism to protect the confidentiality of a consumer’s nonpublic personal information. Subtitle B prohibits
“pretext calling,” which is a deceptive practice used to obtain information on the financial assets of consumers.
Criminal penalties and regulatory and administrative enforcement mechanisms are established to help prevent this
practice.

                                                       24
                                                                                   APPENDIX II

the provisions of Regulation Z that implement HOEPA. The amendments restrict certain unfair
practices and strengthen HOEPA’s prohibition against extending credit without regard to a
borrower’s ability to repay it.

Real Estate Settlement Procedures Act (RESPA) – RESPA requires lenders, mortgage
brokers, or servicers of home loans to provide borrowers with pertinent and timely disclosures
regarding the nature and costs of the real estate settlement process. The Act also protects
borrowers against certain abusive practices, such as kickbacks, and places limitations upon the
use of escrow accounts. HUD promulgated Regulation X, which implements RESPA.

Truth in Lending Act (TILA) – TILA requires meaningful disclosure of credit and leasing
terms so that consumers will be able to more readily compare terms in different credit and lease
transactions. TILA also protects the consumer against inaccurate and unfair credit billing, credit
card, and leasing transactions. FRB issued Regulation Z, which implements TILA. The
regulation requires accurate disclosure of true cost and terms of credit. The regulation also
regulates certain credit card practices, provides for fair and timely resolution of credit billing
disputes, and requires that a maximum interest rate be stated in variable rate contracts secured by
the consumer’s dwelling.




                                                25
                                                                                                                                               APPENDIX III

                                  CHARACTERISTICS POTENTIALLY ASSOCIATED WITH PREDATORY LENDING

    Characteristic                                                             Definition of Characteristic
Abusive Collection      Attempting to collect debt through harassment or abuse, improper communication, false or misleading representations, or
Practices               furnishing deceptive forms.
Balloon Payments        Loans with balloon payments are structured so that monthly payments are lower, but one large payment (the balloon payment) is
                        due when the loan matures. Predatory loans may contain a balloon payment with unrealistic repayment terms, which the borrower
                        is unlikely to be able to afford, resulting in foreclosure or refinancing with additional high costs and fees. Sometimes, lenders
                        market a low monthly payment without adequate disclosure of the balloon payment. Balloon payments disguise the true, higher-
                        than-expected cost of the loan.
Encouragement of        Encouraging a borrower to breach a contract and default on an existing loan prior to and in connection with the consummation of a
Default                 loan that refinances all or part of the existing loan.
Equity Stripping        Repeat financings where the equity is depleted as a result of financing excessive fees.
Excessive Fees          Abusive loans may include fees that greatly exceed the amounts justified by the costs of the services provided and the credit and
                        interest rate risks involved. Lenders may add these fees to the loan amounts rather than requiring payment up front, so the
                        borrowers may not know the exact amount of the fees they are paying.
Excessive Interest      Mortgage interest rates can legitimately vary based on the characteristics of borrowers (such as creditworthiness) and of the loans
Rates                   themselves. However, in some cases, lenders may charge interest rates that far exceed what would be justified by any risk-based
                        pricing calculation, or lenders may “steer” a borrower with an excellent credit record to a higher-rate loan intended for borrowers
                        with poor credit histories.
Fraud, Deception, and   Predatory lenders may perpetrate outright fraud through actions such as inflating property appraisals and doctoring loan
Abuse                   applications and settlement documents. Unscrupulous lenders often prey on certain groups—the elderly, minorities, and
                        individuals with lower incomes and less education, with deceptive or high-pressure sales tactics.
High Loan-to-Value      These loans effectively prohibit homeowners from selling their homes or filing bankruptcy to escape unaffordable debt, without
Ratio                   losing their home.
Lending Without         Loans may be made without regard to a borrower’s ability to repay the loan. In these cases, the loans are approved based on the
Regard to Ability to    value of the asset (the home) that is used as collateral. In particularly egregious cases, monthly loan payments have equaled or
Repay                   exceeded the borrower’s total monthly income. Such lending can quickly lead to foreclosure of the property.
Loan Flipping           Mortgage originators may refinance borrowers’ loans repeatedly in a short period of time without any economic gain for the
                        borrower. With each successive refinancing, these originators charge high fees that are folded into the loan balance and “strip”
                        borrowers’ equity in their homes.
Mandatory Arbitration   Mandatory arbitration clauses limit homeowners’ choices for dispute resolution, thereby preventing victims of predatory lending
Clauses                 practices from suing for damages.




                                                                                 26
                                                                                                                                             APPENDIX III


    Characteristic                                                             Definition of Characteristic
 Payday Lending          Payday loans are small-dollar, unsecured, short-term advances that have high fees relative to the size of the loan. When used
                         frequently or for long periods, the total costs can rapidly exceed the amount borrowed.
 Pre-payment Penalties Penalties for prepaying a loan are not necessarily abusive, but predatory lenders may use them to trap borrowers in high-cost loans.
 Refinancing of Special Special subsidized mortgages that contain terms favorable to the borrower are refinanced with a loan that does not provide a
 Mortgages               tangible economic benefit to the borrower relative to the refinanced loan.
 Refinancing             The process of using an individual’s home as collateral to refinance unsecured debt such as credit cards or medical debts. This
 Unsecured Debt          process can be disadvantageous because creditors of unsecured debt can rarely take a borrower’s property for nonpayment.
                         However, creditors who refinance unsecured debt using a home as collateral can take the home for nonpayment.
 Repetitive              Repeatedly refinancing a loan within a short period of time and charging high points and fees with each refinancing. The repeated
 Refinancing             refinancing has the effect of stripping the homeowner’s equity from the home by increasing the amount borrowed in each
                         refinancing without providing any benefit to the borrower.
 Single-Premium          Credit insurance is a loan product that repays the lender should the borrower die or become disabled. In the case of single-
 Credit Insurance        premium credit insurance, the borrower pays the total premium upfront rather than on a monthly basis because it is added to the
                         amount financed in the loan. The process of adding the full premium to the amount of the loan unnecessarily raises the amount of
                         interest borrowers pay. Therefore, single-premium credit insurance is generally considered inherently abusive.
 Spurious Open-End       The lender is allowed to avoid the more comprehensive disclosures required by closed-end credit and thereby avoid any chance of
 Loans                   the homeowner asserting the right of rescission, avoiding the restrictions under the HOEPA, regardless of the cost of the loan.
 Steering                The process of referring borrowers who qualify for lower-cost financing to high-cost lenders. Subprime lenders will charge prime
                         borrowers who meet conventional underwriting standards higher rates than necessary.
 Subprime Lending        Subprime borrowers typically have weakened credit histories that include payment delinquencies and possibly more severe
                         problems such as charge-offs, judgments, and bankruptcies. Such borrowers may also display reduced repayment capacity as
                         measured by credit scores, debt-to-income ratios, or other criteria that may encompass borrowers with incomplete credit histories.
                         Generally, predatory mortgage lending occurs in the subprime market.
 Yield-Spread            The payment a mortgage broker receives from a lender based on the difference between the actual interest rate on the loan and the
 Premiums                rate the lender would have accepted on the loan given the risks and costs involved. The higher the actual loan rate compared with
                         the acceptable loan rate, the higher the yield-spread premium. Yield-spread premiums provide incentives for mortgage brokers to
                         steer borrowers into higher-cost loans.
Source: OIG review of congressional testimony related to predatory lending and reports issued by GAO, HUD and Treasury, OCC, Freddie Mac, the Center for
Responsible Lending, National Consumer Law Center, and the FDIC on payday and subprime lending.




                                                                                 27
                                                                                 APPENDIX IV



                         INFORMATION PROVIDED BY OTHER
                          FEDERAL REGULATORY AGENCIES

This appendix contains chronological information related to actions taken by OTS and OCC to
address predatory lending. The appendix includes (1) information discussed in detail in our
report in the section entitled, Issues for Consideration, and (2) supplemental information
provided by OCC and OTS that was not included in our review of the agencies' efforts to address
predatory lending and, therefore, was not verified during the audit. (The supplemental
information is excerpted and shown in italics below.)

OTS

OTS has issued examination-scoping guidance and a Strategic Plan that specifically addresses
predatory lending. The OTS Examination Scope Worksheet, which examiners use to determine
whether a specific issue should be included in the examination scope, includes a line item for an
assessment of predatory lending issues. Further, the OTS Strategic Plan includes a performance
goal to maintain a thrift industry that effectively complies with consumer protection laws. As
stated in the plan, one of the strategies OTS uses for achieving performance is to “conduct
examinations with a top-down, risk focused approach that promotes comprehensive compliance
management including the establishment of adequate internal controls to ensure regulatory
compliance and to avoid predatory practices.”

       OTS received numerous comments from financial institutions and other interested parties
       when OTS issued an ANPR [Advance Notice of Proposed Rulemaking] on “Responsible
       Alternative Mortgage Lending” in April 2000. (65 Fed. Reg. 17811 (April 5, 2000)).
       OTS’s rule, created during a high interest rate environment when many state laws
       prohibited ARMS, granted state-chartered thrifts and non-depository institutions
       preemption under the Alternative Mortgage Transaction Parity Act from state laws on
       alternative mortgages. Over the years, this preemption frustrated the states from
       enforcing consumer protections relating to prepayment penalties and late charges. OTS
       addressed the issue in September 2002 in its final rulemaking on the Alternative
       Mortgage Transaction Parity Act (AMTPA).

       In addition, OTS has taken a number of affirmative steps to stop or prevent institutions
       from offering loans with predatory characteristics. These actions include directing
       institutions (and requiring them through normal and formal enforcement actions) to close
       certain types of lending programs and directing certain institutions to divest their thrift
       charters. OTS also makes referrals concerning possible Equal Credit Opportunity Act
       violations by mortgage brokers and others to the Federal Trade Commission and
       Department of Justice, and discrimination complaints to Department of Justice and the
       Department of Housing and Urban Development.




                                               28
                                                                                                   APPENDIX IV

         In addition to the interagency guidance noted previously, OTS has issued guidance on
         title loan programs and payday lending10 in CEO [Chief Executive Officer] Letters 131
         and 132. This guidance states that OTS will closely review the activities of savings
         associations engaged in title loan programs and payday lending to ensure that they are
         following prudent, non-abusive lending practices.

OCC

         The OCC conducts risk-based consumer compliance reviews that require examiners to
         determine the quantity of risk inherent in the bank’s products and services associated
         with consumer protection laws and regulations, including those addressing predatory
         lending and unfair or deceptive acts or practices. Consumer complaint data are
         reviewed and analyzed for early warning indicators of potential unfair, deceptive,
         abusive, and predatory practices. Examiners also evaluate the adequacy of the financial
         institution’s risk management practices used to identify, measure, monitor, and control
         the institution’s compliance and reputation risk. If the quantity of risk is high and
         exposes the institution to significant risk or the compliance management system is
         inadequate to address the quantity of risk identified, examiners may expand their review
         to ensure the institution is in compliance with applicable laws and regulations.

         In December 2004, OCC issued revised risk-based Retail Lending Examination
         Procedures. Minimum examination procedures are used in all banks, and they may
         indicate the need for more extensive review of all or parts of a bank’s retail lending
         activities. As part of the minimum examination procedures, examiners determine
         whether the bank’s lending activities include indicators of predatory lending, such as
         whether underwriting policies provide appropriate guidance on assessing that the
         borrower’s capacity to repay the loan is based on a consideration of the borrower’s
         income, financial resources, and debt service obligations, and whether the bank’s
         policies and procedures provide adequate guidance to avoid discriminatory, unfair,
         deceptive, predatory, and abusive lending practices. If examiners determine that
         supplemental examination procedures are necessary, those procedures include
         assessments that identify predatory lending practices.


         •   In July 2000, the OCC issued an advisory letter addressing abusive lending practices.
             The advisory letter identified a number of practices that may indicate that an
             institution may be engaging in abusive lending and violations of fair lending statutes
             and other consumer protection provisions.

         •   In November 2000, the OCC issued an advisory letter alerting national banks to
             concerns raised by title lending arrangements with third parties. Such arrangements
             raise significant consumer protection concerns, because of the high cost of the loan,
             and may involve abusive lending and collection practices.


10
  A title loan is a short-term consumer loan made to an individual secured by clear title to the borrower’s vehicle.
Payday loans are small-dollar, short-term loans that borrowers promise to repay out of their next paycheck.

                                                          29
                                                                          APPENDIX IV

•   Also in November 2000, the OCC issued an advisory letter to ensure that any
    national bank that engages in payday lending does so in a safe and sound manner
    and does not engage in abusive practices that would increase the compliance, legal,
    and reputational risks associated with payday lending and could harm the bank’s
    customers.

•   In March 2002, the OCC issued an advisory to inform national banks and their
    operating subsidiaries about the risks present in engaging in lending and marketing
    practices that may constitute unfair or deceptive acts or practices, and to help
    national banks to avoid being placed in jeopardy of penalties, judgments, and harm
    to their reputations that can result from such practices.

•   In February 2003, OCC issued two advisory letters related to predatory lending to the
    national banks and operating subsidiaries it supervises, as discussed earlier in this
    report.

•   In January 2004, OCC issued a rule adopting anti-predatory lending standards that
    expressly prohibit national banks from making consumer and mortgage loans based
    predominantly on the foreclosure value of the borrower’s collateral and engaging in
    unfair and deceptive practices, as discussed earlier in this report.

•   In April 2004, the OCC issued an advisory letter intended to help national banks
    identify risks that are presented by secured credit cards and to provide guidance on
    how to address such risks, so that national banks that elect to offer secured credit
    cards do so in a safe and sound manner that treats customers fairly and promotes
    responsible credit access.

•   In September 2004, OCC issued an advisory letter alerting national banks regarding
    OCC’s concerns about certain credit card marketing and account management
    practices, as discussed earlier in this report.

•   In February 2005, OCC issued guidelines for national bank residential mortgage
    lending standards to further the OCC’s goal of ensuring that national banks do not
    become involved in predatory, abusive, unfair, or deceptive residential mortgage
    lending practices, as discussed earlier in this report.

The OCC has used its 12 U.S.C. [United States Code] § 1818 enforcement authority to
bring actions against national banks that have engaged in unfair or deceptive acts or
practices. These enforcement actions include two predatory mortgage lending cases and
several cases involving credit card issuers that engaged in unfair or deceptive acts or
practices. The enforcement actions have resulted in over $300 million in relief for
consumers.




                                        30
Appendix V
     APPENDIX V




32
     APPENDIX V




33
     APPENDIX V




34
     APPENDIX V




35
     APPENDIX V




36
                                                                                                                                               APPENDIX VI



                                           MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response on the recommendations in our report and the status of the recommendations as of the
date of report issuance.
                                                                                                                                  Open
 Rec.                                                                    Expected             Monetary       Resolved:a            or
Number         Corrective Action: Taken or Planned/Status            Completion Date          Benefits       Yes or No           Closedb
              DSC will develop an overall supervisory                December 31, 2006          NA              Yes               Open
      1       approach to predatory lending that will
              include a review of existing supervisory
              policies and practices.
              DSC will review existing predatory lending             December 31, 2006            NA             Yes              Open
      2       guidance and, if necessary, develop
              additional guidance to address predatory
              lending.
a
    Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                               37
